FEDERAL COMMUNICATIONS
      COMMISSION

    OFFICE OF INSPECTOR GENERAL




 Report on Audit of the Federal Communications Commission
                   Transit Benefit Program

             Audit Report No. 04-AUD-02-02

                   September 27, 2004
          Report on Audit of the Federal Communications Commission
                            Transit Benefit Program

                             Table of Contents


                                                                     Page


EXECUTIVE SUMMARY                                                      2


AUDIT OBJECTIVE                                                        2


AUDIT SCOPE AND METHODOLOGY                                            3


BACKGROUND                                                             4


AUDIT RESULTS                                                          5

OTHER MATTERS TO BE REPORTED                                           7

ATTACHMENT – Management Response
                              EXECUTIVE SUMMARY

The OIG initiated an audit of the Commission’s Transit Benefit Program as part of its
annual audit plan and in response to FCC management concerns of a possible increased
risk of waste, fraud, or abuse due to the increase in allowable monthly reimbursements
from $65 to $100 on January 1, 2002.

We conducted the audit with the objectives of assessing the policies and procedures
issued by the Commission for the transit subsidy benefit program for compliance with
applicable regulations and union agreements, testing the Commission’s internal controls
for compliance with the program requirements, testing employee compliance with
program participation requirements, and reaching an overall opinion as to the program’s
control system and compliance with requirements and identifying areas where operational
improvements can be made.

In our opinion, the Commission’s transit benefit program is in compliance with the
government’s transit benefit rules and regulations and we did not find indications of
significant abuse by benefit recipients. However, we did find that the Commission’s
Transit Benefit Program policies and procedures are not adequate.

We found that the Commission relies on Appendix D of the labor bargaining agreement
between the FCC and the NTEU as the policies and procedures for operating its Transit
Benefit Program. Appendix D provides general guidance as to eligibility; application
process; funding methodology; certification requirements; metrocheck distribution
locations, dates, and times; and other administrative directions. It does not provide
detailed guidance to transit benefit recipients.

Comprehensive policies and procedures detailing areas of responsibility, transit benefit
recipient eligibility requirements, and allowable and unallowable transit costs for
reimbursement are essential internal controls for operating a successful program.
Additionally, it should also provide detailed procedures requiring the transit benefit
coordinator to conduct oversight procedures that verify the accuracy of employee data in
the database on an on-going basis and follow-up procedures for any instances of apparent
or actual noncompliance. These policies and procedures would represent the essential
framework for managing and preventing waste, fraud, and abuse in the Transit Benefit
Program and should be readily available on the Commission’s intranet site.

Commission management concurred with our recommendations and outlined procedures
for implementing each recommendation. We agree with the Commission’s responses and
consider their implementation plans to be adequate for improving the program and
preventing waste, fraud, and abuse.


                                 AUDIT OBJECTIVE

The primary objectives of this audit were to:

                                            2
       1. Assess the policies and procedures issued by the Commission for the transit
          subsidy benefit program for compliance with applicable regulations and union
          agreements;

        2. Test the internal controls the Commission has established to ensure
           compliance with the program requirements;

        3. Test employee compliance with the program participation requirements; and

        4. Reach an overall opinion as to the program’s control system and compliance
           with requirements and identify areas where operational improvements can be
           made.


                       AUDIT SCOPE AND METHODOLOGY

The audit was conducted in accordance with Government Auditing Standards (updated
June 2003) issued by the Comptroller General of the United States, and included such
analyses, interviews and testing as required to support the audit findings. Specific audit
steps included the following:

   •   Reviewing the Commission’s Transit Benefit Program Policies and Procedures;

   •   Assessing control risk to use as a basis for planning the nature, timing, extent of
       testing;

   •   Examining, on a test basis, evidence supporting the amounts and disclosures in
       the data and records examined; and,

   •   Evaluating the overall data and records presentation.

Audit fieldwork was primarily performed within the Office of the Managing Director
(OMD) from January through June 2004.

We randomly and judgmentally selected 89                             Commuting Modes
transit benefit recipients from the Commission’s
calendar year 2002 and 2003 Transit Benefit                  78%
                                                   80%
Program databases and submitted a                  70%
questionnaire to them for their response. As the   60%
graph on the right depicts and based on our        50%
sample, it appears that the vast majority of the   40%
Commission’s transit benefit recipients            30%
commute to and from work via the Washington        20%
                                                                                           11%
D.C. area metrorail system.                        10%                             7%
                                                                          2%
                                                    0%
                                                         Metrorail   Van Pool   Train   Stopped
                                             3
We designed the transit benefit questionnaire to obtain the sampled recipients’ responses
to validate the information they certified to in the program system’s database, test for
compliance with program requirements, and ascertain whether recipients read and are
familiar with the FCC’s transit benefit program requirements.


                                        BACKGROUND

On October 1, 2000, the Federal Communications Commission (FCC) implemented its
Transit Benefit Program as part of the collective bargaining agreement with the National
Treasury Employees Union (NTEU) for qualified Commission employees. The purpose
of the Transit Benefit Program is to encourage maximum use of public mass transit for
commuting to and from the workplace and comply with Federal requirements1. These
requirements require federal agencies to offer transit subsidies for employees in the
National Capital region using public transportation.

The Executive Order requires that all federal agencies provide transit benefits up to the
full amount allowed by Internal Revue Service Code, which increased from $65/month to
$100/month in January of 2002. Agencies are required to fund their transit benefit
incentives from existing appropriations. The benefits are also excluded from taxable
wages and compensation consistent with section 132 of title 26 of the United states code
(26 U.S.C. 132 (f) (2)).

Under the Transit Benefit Program, the Commission provides qualified employees with
Metrocheks based on the amount the employee certifies they spend for commuting from
home to work via
public transportation up to a maximum of
$100.00 per month. Based on our random       Respondents' Monthly Claimed
and judgmental sample selection, it appears            Benefit Amount
that approximately half of the Commission’s
benefit claims are for the $100.00       50%  47%
maximum amount. Transit                  45%
benefits were disbursed to               40%
approximately 830 recipients that        35%
averaged $72,000 per month in            30%           28%
2002 and 845 recipients that             25%
                                         20%
averaged $74,000 per month in
                                         15%                  11%
2003. These disbursements                                                    10%
                                         10%
resulted in estimated annual costs        5%                           3%
of $861,000 and $887,000 to the           0%
Commission for calendar years                100     99-75 74-50      <50  None
2002 and 2003, respectively.                                Dollars

1
   Executive Order 13150, “Federal Workforce Transportation” dated April 21, 2000 ordered that,
effective October 1, 2000

                                                  4
FCC management considers the program to be a success but feels that there is an
increased risk for waste, fraud, or abuse since the Transit Benefit Program increased from
$65 to $100 per month. Their informal reviews indicate potential overpayments based on
employee addresses and/or methods of commuting. Management also noted that several
Commission employees increased their claimed commuting costs when the benefit
increased on January 1, 2002.

                                   AUDIT RESULTS

FINDING – The Commission’s Transit Benefit Program policies and procedures are not
adequate.

In our opinion, the Commission’s transit benefit program is in compliance with the
government’s transit benefit rules and regulations. The FCC offers transit benefits to
employees that participate in approved mass transit commuting options which complies
with Executive Order 13150, effective October 1, 2000. This Order requires all federal
agencies to offer benefits in the form of transit passes up to the maximum allowed by 26
USC 132(f)(2). Beginning January 1, 2002, the maximum benefit increased from $65 per
month to $100 per month.

We did not find indications of significant abuse by benefit recipients from our random
and judgmental samples. Of the 89 employees sampled, only four (4) employees
appeared to receive overpayments ranging from $13.00 to $45.00 per month. These
individuals will be referred to management for appropriate action.

However, we did find that the Commission’s Transit Benefit Program policies and
procedures are not adequate. FCC management has not issued comprehensive policies
and procedures but rather relies on Appendix D of the labor agreement between the FCC
and the NTEU as the program’s policies and procedures. Appendix D is not
comprehensive enough to be adequate and is not readily available to employees on the
Commission’s intranet site. We found that Commission management has drafted transit
benefit policies and procedures that appear to be adequate and may provide
comprehensive guidance to employees and management for participating in and
managing the program, if released and made available on the Commission’s intranet site.

Comprehensive policies and procedures detailing areas of responsibility, transit benefit
recipient eligibility requirements, and allowable and unallowable transit costs for
reimbursement are essential internal controls for operating a successful program.
Additionally, they should provide that the transit benefit coordinator conduct oversight
procedures that verify the accuracy of employee data in the database on an on-going basis
and follow-up procedures for any instances of apparent or actual noncompliance. These
policies and procedures would represent the essential framework for managing and
preventing waste, fraud, and abuse in the Commission’s Transit Benefit Program.



                                            5
As stated previously, the Commission relies on Appendix D of the labor bargaining
agreement between the FCC and the NTEU as the policies and procedures for operating
its Transit Benefit Program. Appendix D provides general guidance as to eligibility;
application process; funding methodology; certification requirements; metrocheck
distribution locations, dates, and times; and other administrative directions. However, it
does not provide detailed guidance to transit benefit recipients. For example, Appendix
D, Section 2, Sub-Section D, provides the only eligible and ineligible cost guidance to
transit benefit recipients as follows:

       “Employees assigned to headquarters who utilize approved public mass
       transportation are eligible to participate in the Transit Benefit Program. Car
       pools, van pools that do not have a contract with the WMATA (Washington
       Metropolitan Area Transit Authority), and/or applicants who are named on a
       worksite motor vehicle parking permit with any other Federal agency are not
       eligible to receive a transit benefit.”

Appendix D does not provide clear guidance on transit costs that are not eligible for
reimbursement, such as parking fees, gas, etc. In addition, these policies and procedures
are not readily available to anyone seeking guidance. The transit benefit policies and
procedures should be readily available in the employee benefits area of the Commission’s
intranet site.

Respondents to our questionnaire bear this deficiency out. Approximately 40 percent
responded that they have not read or are not familiar with the transit benefit program
requirements. For example, one respondent commented and recommended: “The
guidance document that I have seen is "Appendix D, Transit Benefit Agreement Between
the FCC and NTEU Chapter 209." That document provides a little guidance on the
ethics of the program, but no guidance on decrementing absences from the monthly
commuting subsidy schedule.

Another respondent commented that: “The rules with respect to what costs can be
included in our transit benefit and what to do about variations in monthly commuting
costs are not been (sic) fully explained nor are there mechanisms in place to deal with
such variations. The only rules for this program that I am aware of are on the application
and they are not very specific. For instance, should parking/gas be included in the transit
benefit? With respect to monthly cost variations, when I first asked (years ago) what to
do if I had leave scheduled in a particular month, I was told that I should do nothing to
my transit benefit, unless the leave totaled half of the month.”

As indicated by the above response examples, the existing policies and procedures fail to
provide the Commission’s employees and administrators with clear guidance for
complying with and managing the Transit Benefit Program. This lack of clear guidance
leads to confusion, individual interpretation, and inconsistent oversight which increase
the risk of waste, fraud, and abuse.

Because of the above, we recommend that Commission management:

                                             6
       1. Design more comprehensive Transit Benefit Program policies and procedures.
          Consider implementation of the current draft procedures developed by ASC.

       2. Make the policies and procedures readily available on the Commission’s
          intranet site.

       3. Establish formal notification procedures for communicating any Program
          changes or issues.

       4. Require the Transit Benefit Coordinator to conduct random or regular checks
          of employee information. This would include verifying the accuracy of
          employee data in the database and following-up on instances of any apparent
          or actual non-compliance.

Implementing these recommendations will make the policies and procedures readily
available to Commission employees and increase management controls over the Transit
Benefit Program. This will provide a comprehensive framework for complying with and
administering the Program and significantly reduce the risk of waste, fraud, or abuse.

Commission management concurred with our recommendations (Attachment) and
outlined procedures for implementing each recommendation. Management also reported
that they are investigating the option of having the Department of Transportation take
over management of the Commission’s Transit Benefit Program. We agree with the
Commission’s responses and consider their implementation plans to be adequate for
improving the program and preventing waste, fraud, and abuse.


                      OTHER MATTERS TO BE REPORTED


At ASC’s request, we reviewed the Commission’s daily temporary parking pass controls
and employee monthly parking checks being returned to the contractor for insufficient
funds.

Daily temporary parking passes. During April 2004, the ASC contacted the OIG for
advice on a parking problem. Two individuals who were signed up for a car pool that
parks in the FCC’s Portals II parking garage were parking both of their cars at the FCC
Portals II parking facility on a daily basis. This is a clear violation of FCC discount
parking policy, which only allows one car pool vehicle in the parking garage per car pool
and specifically prohibits employees in the transit benefit program from participating in
the discount parking program. The ASC investigated this and found that one of the car
poolers parked their car using the monthly parking pass while the other car pooler parked
their car by obtaining temporary daily parking passes from the parking attendant.
Temporary daily parking passes are for paid monthly parkers who lost their monthly
parking tag, forgot to transfer the monthly tag to the car they’re driving, or some other

                                            7
legitimate reason. It is not to be used for unauthorized parkers to access to the parking
garage.

Based on the above discussion, we recommended that the ASC should make the
temporary daily passes pre-numbered controlled documents that cross reference to a
roster with matching parking pass numbers. Once they obtain the pre-numbered parking
passes, we recommended that they require their parking attendants to record the
temporary parker’s name, FCC badge number, vehicle type, and vehicle license number
on the subject daily roster that corresponds to the pre-numbered daily pass number each
time one is used. This control should significantly reduce parking privilege abuses and
provide investigative support for any related disciplinary actions.

The ASC concurred and immediately implemented our recommendation. As a result,
they were able to increase control over the parking program and identify other parking
abusers. For example, they identified a transit benefit program participant who had been
using a temporary daily pass to park in the Portals II garage.

Checks returned for non-sufficient funds (NSF). Based on discussions about monthly
parking participant checks being returned to the parking program contractor, Natek, Inc.,
for NSF, we requested a listing of all returned checks from January 1, 2004 through June
30, 2004. We found that twenty-seven (27) monthly parking checks had been returned as
NSF in the last six months totaling $3,105.00. Of approximately 725 monthly parking
checks received by Natek, Inc. each month, less than 1% gets returned as NSF. This does
not appear to be a significant problem, but we did notice that two (2) participants had
NSF checks returned two (2) different times during this six month period.

As a result, we recommend that management counsel individuals who issue NSF checks
of possible ethics violations as a Federal employee for the first violation and consider
disciplinary action if violations appear habitual. Additionally, the Commission would be
well served to include a refresher on employee responsibilities in this area as part of its
ethics education program (i.e. ethics grams).




                                             8
